No. 20-1223

In the Supreme Court of the United States
JOHNSON & JOHNSON and
JOHNSON & JOHNSON CONSUMER INC.,
Petitioners,
v.
GAIL L. INGHAM, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief for DRI–The
Voice of the Defense Bar as Amicus Curiae Supporting Petitioners contains 5,900
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 5, 2021.
/s/ Lisa M. Baird
LISA M. BAIRD
Counsel of Record
REED SMITH LLP
1001 Brickell Bay Drive,
Miami, FL 33131
(786) 747-0200
lbaird@reedsmith.com
Counsel for Amicus Curiae

